------------------------ ··--········

No.
OCTOBER TERM, 2020
IN THE SUPREME COURT OF THE UNITED STATES

JUAN DAVID RODRIGUEZ,

Petitioner,

v.
MARK INCH, Secretary,
Florida Department of Corrections,

Respondent.

PROOF OF SERVICE

I, Scott Gavin, counsel for Petitioner, do swear or declare that on this 23rd day
of December, 2020, as required by Supreme Court Rule 29, I have served the enclosed
Petition for a Writ of Certiorari to the United States Court of Appeals for the Eleventh
Circuit, Appendix, and Motion to Proceed In Forma Pauperis on each party to the
above proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.

